OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/ZAMBIA’S
GENDER-RELATED HIV/AIDS
ACTIVITIES


AUDIT REPORT NO. 4-611-11-006-P
MARCH 29, 2011




PRETORIA, SOUTH AFRICA
Office of Inspector General


March 29, 2011

MEMORANDUM

TO:                  USAID/Zambia Mission Director, Melissa Williams

FROM:                Regional Inspector General/Pretoria, Christine M. Byrne /s/

SUBJECT:             Audit of USAID/Zambia’s Gender-Related HIV/AIDS Activities
                     (Report Number 4-611-11-006-P)

This memorandum transmits our final report on the subject audit. We have considered
management’s comments on the draft report and have incorporated them into the final report as
appropriate. They have been included in their entirety in Appendix II (excluding attachments).

The final report includes six recommendations to strengthen USAID/Zambia’s gender-related
HIV/AIDS activities. After reviewing management’s comments and supporting documentation
provided, we consider that management decisions have been reached on all six
recommendations, with final action taken on Recommendations 2–6. These recommendations
are closed upon report issuance. For Recommendation 1, please provide the Office of Audit
Performance and Compliance Division (M/CFO/APC) with the necessary documentation to
achieve final action.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
100 Totius Street X5
Pretoria, South Africa 0027
www.usaid.gov/oig
CONTENTS
Summary of Results ...................................................................................................................1

Audit Findings .............................................................................................................................4

     Mission’s Coverage of Gender in HIV/AIDS Programming Left Gaps.....................................4

     Zambia Prevention, Care and Treatment Partnership II Lacked a
     Completed Gender Strategy ...................................................................................................5

     Zambia Prevention, Care and Treatment Partnership II Did Not Report
     Progress on Gender-Related Goals ........................................................................................7

     Local Partners Capacity Building Program Did Not Conduct Required
     Gender Analysis......................................................................................................................8

Evaluation of Management Comments ...................................................................................10

Appendix I – Scope and Methodology ....................................................................................12

Appendix II – Management Comments ...................................................................................15



Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
AED             Academy for Educational Development
ASAZA           A Safer Zambia
FHI             Family Health International
M&E             monitoring and evaluation
NGO             nongovernmental organization
PEPFAR          President’s Emergency Plan for AIDS Relief
PMP             performance management plan
ZPCT            Zambia Prevention, Care and Treatment Partnership
SUMMARY OF RESULTS
On November 5, 2009, USAID updated the gender programming requirements in its Automated
Directives System (ADS) to reflect the Obama Administration’s core commitment to gender
equality and women’s empowerment. ADS now requires gender to be considered as part of
high-level planning (ADS 201.3.9.3), during project and activity planning (ADS 201.3.11.6), as
part of project and activity procurement (ADS 302.3.5.15 for contracts and ADS 303.3.6.3c for
grants and cooperative agreements), and during project and activity monitoring and evaluation
(ADS 203.3.4.3).

HIV is a highly gendered epidemic, meaning that it is driven by gender norms, which dictate an
individual’s vulnerability to HIV and ability to access care, support, and treatment. A good
example of the gendered nature of the epidemic is in Zambia, where HIV prevalence among
women is 16.1 percent versus 12.3 percent among men, 1 as the infection rate for women has
outpaced that for men.

The Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Reauthorization Act of 2008 (The Lantos-Hyde Act, Public Law 110-
293) revised requirements for the President’s comprehensive five-year strategy (and related
report) to combat global HIV/AIDS. 2 Several of these revised requirements relate to gender,
and have moved gender to the forefront of the HIV/AIDS response. To support the new
emphasis, the Office of the U.S. Global AIDS Coordinator calls for teams supported by the
President’s Emergency Plan for AIDS Relief (PEPFAR) to have systematic and intensified
gender programming, coupled with more rigorous strategic planning and monitoring of gender
programming, investment in program evaluation and data analysis, and enhanced technical and
management capacity.

PEPFAR also identified five goals as key in reducing the vulnerabilities of men and women to
HIV infection:

1.   Increasing gender equity in HIV/AIDS services.
2.   Reducing violence and coercion.
3.   Addressing male norms and behaviors.
4.   Increasing women’s legal protection.
5.   Increasing women's access to income and productive resources.

In contrast to other USAID missions that may plan specific programs targeted at each of the
gender goals, USAID/Zambia seeks to integrate gender into all programs in its HIV/AIDS
portfolio. Therefore, to evaluate the mission’s response to the changing emphasis and
guidance, the audit reviewed the mission’s planning and monitoring for gender in its HIV/AIDS
programming and selected three of the mission’s bilateral PEPFAR-funded programs for
detailed review, which are described below:

Zambia Prevention, Care and Treatment Partnership II (ZPCT II). ZPCT II is a 5-year (June
1, 2009–May 31, 2014) program implemented by Family Health International under a task order

1
 Zambia Demographic and Health Survey 2007.
2
  The Lantos-Hyde Act amends the United States Leadership Against HIV/AIDS, Tuberculosis, and
Malaria Act of 2003 (Public Law 108-25).


                                                                                         1
to the AIDS Support and Technical Assistance Resources Sector I indefinite quantity contract.
PEPFAR funds the program, which has a ceiling of just over $124 million. As of September 30,
2010, the mission had obligated $34 million to the program, $20.4 million of which had been
disbursed. ZPCT II operates in five of the country’s nine provinces 3 with assistance from seven
subpartners. The five main objectives of the program are to: expand HIV/AIDS services that
emphasize prevention, strengthen the health system, and support the priorities of the Zambian
Government; increase partner and stakeholder involvement and participation in those activities;
increase the capacity of the provincial and district health offices; build and manage public-
private partnerships to expand and strengthen HIV/AIDS service delivery in private sector health
facilities; and integrate service delivery and other activities at the national, provincial, district,
facility, and community levels.

Corridors of Hope III. Corridors of Hope III is a 5-year (September 11, 2009–September 10,
2014) program implemented through a cooperative agreement between Family Health
International and USAID/Zambia, funded through PEPFAR. As of September 30, 2010, the
mission had obligated $4.8 million of the total estimated $25 million to the program, $2.8 million
of which had been disbursed. Corridors of Hope III is implemented in partnership with Afya
Mzuri, the Zambian Health Education and Communication Trust and the Zambia Interfaith
Networking Group on HIV and AIDS. The program operates in seven communities along
Zambia’s transport corridors and seeks to expand HIV counseling and testing beyond the target
groups of the early Corridors of Hope programs (e.g., truck drivers and commercial sex workers)
to include the many others at risk of infection in and around these communities.

Local Partners Capacity Building Program. The Academy for Educational Development
implements the Local Partners Capacity Building Program under a cooperative agreement with
USAID that runs from May 12, 2008, to September 30, 2012. The estimated value of the
agreement is over $49 million, of which the mission had obligated $9.1 million and disbursed
$5.3 million as of September 30, 2010. The program seeks to improve the overall capacity of
selected local nongovernmental faith-based and community-based organizations to ensure
efficient and effective expansion of their programs so that they deliver quality HIV/AIDS services
in Zambia.

The Regional Inspector General/Pretoria conducted this audit to determine whether selected
HIV/AIDS activities implemented by USAID/Zambia were helping to achieve PEPFAR’s five
gender-focused goals.

The audit noted that USAID/Zambia and the selected programs were paying increased attention
to gender. Staff from USAID/Zambia attended the 2009 Gender Technical Exchange
conference conducted by PEPFAR’s Gender Technical Working Group in Johannesburg, South
Africa; participated in the recently formed Partners for Gender Activities Group, which facilitates
interagency discussion on gender issues in Zambia; and frequently invited speakers on gender-
related topics to mission meetings. USAID officials, implementing partners, and program staff
were generally aware of gender requirements and activities that could be used to further gender
goals.

The audit also noted that two of the three selected programs had planned and implemented
gender-focused activities. ZPCT II was increasing gender equity in HIV/AIDS services through

3
 The ZPCT II program operates in the following provinces: Central, Copperbelt, Luapula, Northern and
North Western. Programs in the remaining provinces are funded through other U.S. agencies, foreign
government agencies, and other donors.


                                                                                                    2
support of a family counseling and testing facility in Copperbelt Province. The program was
also addressing male norms and behaviors by trying to increase male involvement in antenatal
prevention services through education and outreach activities. Corridors of Hope III was
working to increase gender equity in HIV/AIDS services by providing mobile sites and door-to-
door counseling and testing to reduce barriers to access. The program was addressing male
norms and behaviors through community groups, workplace programs, and peer education. It
was also increasing women’s access to income and productive resources through the new
livelihood component, which helps women establish savings and loans groups.

However, the audit noted that not all HIV/AIDS activities implemented by USAID/Zambia were
working toward achieving the gender-focused goals. Specifically the audit noted the following
problems:

•   The mission’s coverage of gender in HIV/AIDS programming left gaps (page 4).

•   ZPCT II lacked a completed gender strategy (page 5).

•   ZPCT II did not report progress on gender-related goals (page 7).

•   The Local Partners Capacity Building Program did not conduct required gender analysis
    (page 8).

To strengthen USAID/Zambia’s HIV/AIDS activities, this audit recommends that the mission:

1. Develop and distribute a plan or guidance to help ensure that its HIV/AIDS programming
   systematically addresses PEPFAR’s gender-related goals (page 5).

2. Establish roles and responsibilities for a mission gender focal point with input on all the
   mission’s HIV/AIDS activities, and appoint an individual to the position (page 5).

3. Set a deadline by which the ZPCT II gender strategy must be approved and launched by
   partners, and develop a plan to meet the deadline (page 7).

4. Require its contractor to amend the ZPCT II monitoring and evaluation work plan to include
   a requirement to report on indicators for male involvement in prevention of mother-to-child
   transmission and the promotion and strengthening of couples-oriented counseling and
   testing (page 8).

5. Require its contractor to disaggregate gender-relevant indicator results in the ZPCT II
   program’s periodic performance reporting (page 8).

6. Request that its implementing partner perform a gender analysis that includes a timeline for
   the development and implementation of a strategy to incorporate gender into activities
   performed under the Local Partners Capacity Building Program (page 9).

Detailed findings appear in the following section. The audit scope and methodology are
described in Appendix I, USAID/Zambia’s comments appear in their entirety as Appendix II, and
our evaluation of management comments is included on page 10.




                                                                                             3
AUDIT FINDINGS
Mission’s Coverage of Gender in
HIV/AIDS Programming Left Gaps
As explained in the summary, the Lantos-Hyde Act revised requirements for the President’s
comprehensive five-year strategy to combat global HIV/AIDS and added several requirements
relating to gender. These requirements focus attention on key gender issues related to
HIV/AIDS outcomes. In response to this, the Office of the U.S. Global AIDS Coordinator
developed the PEPFAR Gender Framework, which calls for more rigorous strategic planning
and monitoring of gender programming. The framework also calls for more systematic and
intensified gender programming, demonstrated through, among other commitments, a more
strategic and explicit focus on preventing and responding to gender-based violence. As the
U.S. Global AIDS Coordinator stated, “Gender-based violence, in particular, directly promotes
the spread of HIV/AIDS by limiting women’s ability to negotiate sexual practices, disclose HIV
status, and access medical services and counseling due to fear of GBV [gender-based
violence].”

Despite the attention given to gender-based violence by both Congress and the Office of the
U.S. Global AIDS Coordinator, there are gaps in the planning and implementation of
USAID/Zambia’s HIV/AIDS programming to address PEPFAR’s gender-focused goals.
Although the mission was helping address Zambia’s critical need for gender-based violence
services through a program called A Safer Zambia (ASAZA)—funded through the U.S.
Government’s Women’s Justice and Empowerment Initiative, not through PEPFAR—
USAID/Zambia did not help facilitate links between ASAZA and other USAID PEPFAR
programs, such as ZPCT II and Corridors of Hope III. Not facilitating links was contrary to
PEPFAR’s strategy to reduce violence and coercion, which calls for links with community and
social services that provide protection and care for victims of violence. Defining links between
programs could help promote and ease victim referral. Additionally, although ASAZA is
scheduled to end on January 31, 2011, the succeeding program, which the mission will fund
under PEPFAR, will start no sooner than October 2011. This schedule may leave a gap in
gender-based violence services of several months or more, which USAID/Zambia may not be
able to coordinate with other non-U.S. Government programs to fill. 4 Funding for the new
program was requested as part of the fiscal year 2011 planning process.

Gaps existed in USAID/Zambia’s gender-related HIV/AIDS activities for two primary reasons:

•   PEPFAR Partners Lacked an Interagency HIV/AIDS Gender Strategy in Zambia.
    Though the Partners for Gender Activities Group had recently been formed to facilitate
    interagency discussion on gender-related issues in Zambia, PEPFAR partners in the country
    were operating without an interagency HIV/AIDS gender strategy. Although such a strategy
    would need to complement the Government of Zambia’s gender strategy, which was under
    revision, operating without a strategy makes it difficult to ensure that U.S.-funded activities
    align with PEPFAR goals. USAID/Zambia, as one of several PEPFAR partners in the
    country operating without an interagency strategy or its own strategy, was therefore not


4
 After the Office of Inspector General issued the draft report, USAID signed an agreement modification to
extend the ASAZA program until September 30, 2011.


                                                                                                       4
      systematically programming its HIV/AIDS activities to address PEPFAR’s gender-related
      goals.

•     USAID/Zambia Lacked an HIV/AIDS Gender Focal Point. USAID/Zambia’s PEPFAR
      funds are managed primarily by the mission’s HIV/AIDS Multisectoral Office and the
      Population, Health and Nutrition Office. However, only the HIV/AIDS Multisectoral Office
      had appointed a gender focal point person, responsible for activities such as educating the
      office on gender issues, ensuring that gender is integrated throughout the program life cycle,
      and liaising with other gender specialists and working groups. This means that the
      Population, Health and Nutrition Office, as well as the other offices receiving PEPFAR
      funding, may not have the level of attention to gender required under PEPFAR.

In Zambia, one in five women reports having experienced sexual violence at some point in her
life, and 46.8 percent of women have experienced physical violence at some point since the age
of 15. 5 Gender-based violence, which includes both sexual and physical violence, is a barrier to
service for HIV/AIDS counseling and testing, clinical care, and prevention of mother-to-child
transmission. By leaving gaps in this area of programming, which other agencies or
organizations may not be able to fill, USAID/Zambia was not addressing one of the key drivers
of the HIV epidemic in Zambia.

To strengthen USAID/Zambia’s strategy toward gender-related HIV/AIDS activities, the audit
makes the following recommendations.

      Recommendation 1. We recommend that USAID/Zambia develop and distribute a plan
      or guidance to help ensure that its HIV/AIDS programming systematically addresses
      PEPFAR’s gender-related goals.

      Recommendation 2.           We recommend that USAID/Zambia establish roles and
      responsibilities for a mission gender focal point with input on all the mission’s HIV/AIDS
      activities, and appoint an individual to the position.

Zambia Prevention, Care and
Treatment Partnership II Lacked a
Completed Gender Strategy
Section 3.2 of the ZPCT II contract states that an objective of the program is to increase the
capacity to integrate gender considerations in HIV/AIDS service delivery to improve program
quality and achieve inclusiveness. As part of this, the contract states that activities, including
those targeted and tailored to men, will be identified and implemented following the
development of a strategic plan on gender by subpartner Social Impact.

Well into the second year of the 5-year ZPCT II program, the gender strategy that Social Impact
provided to the mission on June 7, 2010, had not been approved by USAID/Zambia or launched
by the program’s partners. Family Health International, the contractor, noted that even without
an approved strategy, ZPCT II had incorporated additional gender-related activities under its
second-year work plan. 6 However, staff in the contractor’s Copperbelt provincial office


5
    Zambia Demographic and Health Survey 2007.
6
    The work plan for ZPCT II’s second year took effect June 1, 2010.


                                                                                                   5
appeared relatively unfamiliar with the gender strategy’s content, and some of the program’s
gender-related activities did not align with the draft strategy.

The audit team noted that gender biases that affect program implementation had been
identified, but strategies to reduce these biases and obstacles had not been consistently
implemented at ZPCT II-supported facilities. For example:

•   Gender-Based Violence. In the Recommended Gender-based Strategies and Activities
    annex of the Zambia Gender Assessment Report, 7 a Social Impact gender specialist
    recommends that ZPCT II address gender-based violence as a key HIV prevention strategy
    and quality of care issue, stating: “If only one strategy is selected to address, this should be
    it.” The assessment lists activities that could help reach this objective, such as training clinic
    staff in gender-based violence screening, and mapping referral points for gender-based
    violence services. However, when asked about gender-based violence activities, the
    contractor’s Copperbelt provincial team responded that these constituted only a small
    component of the program. Additionally, staff at ZPCT II-supported clinics generally
    reported that they attempted to refer patients to gender-based violence services if the
    patients disclosed that they had been abused, but that little was done proactively to screen
    for signs of gender-based violence and that few services were available to victims of
    gender-based violence.

•   Male Involvement in Prevention of Mother-to-Child Transmission.                    In the
    Recommended Gender-based Strategies and Activities annex of the Zambia Gender
    Assessment Report, a Social Impact gender specialist recommends that ZPCT II develop
    gender guidelines for male involvement in prevention of mother-to-child transmission
    activities. The assessment explicitly states, however, that bringing a male partner should
    not be required to gain service. Yet, health-care workers at some ZPCT II-supported
    facilities stated that they did require patients to bring their male partners.

•   Couples Counseling. In the Recommended Gender-based Strategies and Activities annex
    of the Zambia Gender Assessment Report, a Social Impact gender specialist recommended
    that ZPCT II expand couples counseling. Those interviewed for the gender assessment
    rated this the most helpful recommendation, especially for women. However, a review of the
    draft ZPCT II gender strategy found no activities geared toward expanding couples
    counseling. Additionally, staff members at each ZPCT II-supported site visited during the
    audit named a different strategy for increasing couples counseling at their location, ranging
    from outreach efforts, to expanded hours, to not having done anything as of yet.

Although ZPCT II has paid increased attention to some gender issues, the program’s capacity to
integrate gender considerations in HIV/AIDS service delivery is diminished without a formalized,
and implemented, gender strategy.

According to the contractor, completion of the gender strategy has been delayed by the desire
to involve multiple stakeholders in its creation, including the Ministry of Health. However,
USAID/Zambia and the contractor also agreed that completion of the gender strategy has been
slowed by staff turnover at the responsible subpartner, and the USAID official responsible for
the review and approval of the gender strategy noted that initial drafts required revision before
they could be accepted.

7
  The Zambia Gender Assessment Report was completed by a Social Impact gender specialist in
preparation for development of the ZPCT II gender strategy. The report is dated May 19, 2010.


                                                                                                    6
To facilitate the consistent implementation of appropriate gender-related activities at ZPCT II-
supported facilities, the audit makes the following recommendation.

    Recommendation 3. We recommend that USAID/Zambia set a deadline by which the
    Zambia Prevention, Care and Treatment Partnership II gender strategy must be
    approved and launched by partners, and develop a plan to meet the deadline.

Zambia Prevention, Care and
Treatment Partnership II Did Not Report
Progress on Gender-Related Goals
Section 3.2 of the ZPCT II contract states that an objective of the program is to increase the
capacity to integrate gender considerations in HIV/AIDS service delivery to improve program
quality and achieve inclusiveness. This includes replicating successful models from ZPCT I to
promote male involvement in prevention of mother-to-child transmission services and increasing
the participation of couples in counseling and testing. Also, the contract states that, as part of
monitoring and evaluation, the program will collect and report sex-disaggregated data. 8

While clinics supported by ZPCT II have begun some activities designed to meet the gender
objective of the program, ZPCT II was not tracking or reporting progress toward its gender-
related goals. Specifically, the program was missing indicators to measure gender integration
and was not reporting sex-disaggregated data.

•   Missing Indicators.        Although the contractor was collecting data related to male
    involvement in prevention of mother-to-child transmission, ZPCT II’s monitoring and
    evaluation work plan, and therefore its periodic performance reports, does not include a
    requirement to define indicator targets or report results for this activity. Related to the
    promotion and strengthening of couples-oriented counseling and testing, the contractor had
    just begun to develop and disseminate the tools necessary to collect data in this area,
    meaning that data were not included in either the program’s monitoring and evaluation work
    plan or its periodic performance reports.

•   Sex-Disaggregated Data. Although the contractor was collecting sex-disaggregated data
    for relevant indicators, the ZPCT II performance reports provided to USAID/Zambia do not
    disaggregate indicator results by gender.

The contractor indicated that the ZPCT I contract did not include a gender-related objective.
When the ZPCT program was renewed under the ZPCT II contract, effective June 1, 2009, the
gender-related objective was added, but the performance monitoring section of the contract was




8
  On November 5, 2009, approximately 5 months after the ZPCT II contract was signed, USAID’s
Automated Directives System (ADS) 203.3.4.3, “Reflecting Gender Issues in Performance Indicators,”
took effect. It states that performance management systems and evaluations at the assistance objective,
project, or activity level must include gender-sensitive indicators and sex-disaggregated data when the
supporting technical analyses demonstrate that the different roles and status of women and men affect
the activities to be undertaken and the anticipated results of the work would affect women and men
differently.


                                                                                                     7
never amended to require that the program report on anything other than PEPFAR-required
indicators, so as not to overburden the contractor with reporting requirements. 9

As a result, USAID/Zambia was unable to determine whether the contractor was meeting its
contractual obligation to increase the capacity to integrate gender considerations in HIV/AIDS
service delivery to improve program quality and achieve inclusiveness, thereby diminishing
contractor accountability. Further, since the contractor was just beginning to collect data on the
participation of couples in counseling and testing, the mission was not yet able to evaluate the
program’s effectiveness in this area. Therefore, to monitor and evaluate progress made toward
ZPCT II’s gender-related objective, the audit makes the following recommendations.

    Recommendation 4. We recommend that USAID/Zambia require its contractor to
    amend the Zambia Prevention, Care and Treatment Partnership II monitoring and
    evaluation work plan to include a requirement to report on indicators for male
    involvement in prevention of mother-to-child transmission and the promotion and
    strengthening of couples-oriented counseling and testing.

    Recommendation 5. We recommend that USAID/Zambia require its contractor to
    disaggregate gender-relevant indicator results in the Zambia Prevention, Care and
    Treatment Partnership II program’s periodic performance reporting.

Local Partners Capacity Building
Program Did Not Conduct Required
Gender Analysis
The World Health Organization, in its 2009 publication Integrating gender into HIV/AIDS
programmes in the health sector: tool to improve responsiveness to women’s needs, advises
that to create a supporting environment for the integration of gender in HIV/AIDS activities,
programs should build the capacity of program staff to respond to gender inequalities. In line
with this, the cooperative agreement for the Local Partners Capacity Building Program states
that:

       To ensure the promotion of gender equality, the gender analysis developed
       under the PMP/M&E plan [performance management plan/monitoring and
       evaluation plan] must be applied by assessing the gender impacts of various
       proposed activities and ensuring that planned interventions do not result in
       adverse impacts based on gender, with women and girls targeted when
       necessary to achieve gender-integration and -balance.

However, the Local Partners Capacity Building Program has not performed such an analysis
and is implementing activities without a formal strategy to promote gender equality. Though the
program is reporting sex-disaggregated data for relevant indicators—such as number of health
care workers who successfully completed an in-service training program within the reporting
period—it has missed opportunities to integrate gender in all aspects of the program. For
example, the initial 80 partner organizations assisted by the program were selected without a
deliberate approach to choose groups that might increase women’s participation or help change


9
 Indicators to report on male involvement in prevention of mother-to-child transmission and couples
counseling were not required under PEPFAR at the time the contract was signed.


                                                                                                 8
male norms. 10 Additionally, the curriculum for technical training provided to the first partner
organizations selected did not emphasize the importance of gender equity.

The program did not conduct a gender analysis because the mission did not give gender proper
attention following the signing of the agreement, which preceded PEPFAR and USAID’s
increased attention to gender. Oversight from a gender focal point (see Recommendation 2 on
page 5) and adherence to gender analysis requirements in ADS 201.3.11.6, which took effect
after the planning of this program, should prevent this from occurring in future programming.

The main goal of the Local Partners Capacity Building Program is to improve the overall
capacity of selected local NGOs, faith-based organizations, and community-based organizations
so that they can expand their programs in order to deliver quality HIV/AIDS services in Zambia.
However, as the result of planning without a gender analysis, the program is failing to address
one of the key drivers of the HIV/AIDS epidemic in Zambia. Further, it is missing an opportunity
both to emphasize the importance of gender integration and to teach partner organizations how
to implement gender integration strategies effectively, at a stage of the partner organizations’
development that would make the development sustainable.

To improve the capacity of Zambian organizations to integrate gender in HIV/AIDS activities of
the Local Partners Capacity Building Program, the audit makes the following recommendation.

      Recommendation 6. We recommend that USAID/Zambia request that its implementing
      partner perform a gender analysis that includes a timeline for the development and
      implementation of a strategy to incorporate gender into activities performed under the
      Local Partners Capacity Building Program.




10
     An additional 20 organizations are still to be selected for the program.


                                                                                               9
EVALUATION OF MANAGEMENT
COMMENTS
USAID/Zambia agreed with all six recommendations in the draft report. On the basis of actions
taken by the mission and supporting documentation provided, management decisions and final
actions have been taken on Recommendations 2, 3, 4, 5, and 6; a management decision has
been reached on Recommendation 1. Management comments are summarized below,
followed by the audit team’s evaluation of management comments.

Recommendation 1. USAID/Zambia agreed with the recommendation. However, in its initial
response, the mission did not propose any actions that the audit team had not already
considered. In subsequent discussions, USAID/Zambia agreed to: (1) modify the mission order
on activity design and planning to incorporate consideration of PEPFAR gender goals by March
31, 2011, and (2) modify the mission order on gender to incorporate consideration of PEPFAR
gender goals by June 30, 2011. On the basis of these planned modifications, we consider that
a management decision has been reached on Recommendation 1.

Recommendation 2. USAID/Zambia agreed with the recommendation and selected a
candidate to serve as its gender focal point. Having received documentation from the mission
supporting this action, we consider that final action has been taken on Recommendation 2.

Recommendation 3.           USAID/Zambia agreed with the recommendation and provided
documentation showing that the Zambia Prevention, Care and Treatment Partnership II (ZPCT
II) gender strategy has been finalized and approved, with a planned launch at all levels of the
program to be coordinated by the new gender specialist by March 31, 2011. This action
constitutes final action on Recommendation 3.

Recommendation 4.        USAID/Zambia agreed with the recommendation and provided
documentation to support the addition of indicators for male involvement in prevention of
mother-to-child transmission and the promotion and strengthening of couples-oriented
counseling and testing to the ZPCT II monitoring and evaluation work plan and quarterly
performance report. This action constitutes final action on Recommendation 4.

Recommendation 5. In its comments on the draft report, USAID/Zambia agreed with the
recommendation and stated that both targets and results had been disaggregated in the most
recent ZPCT II performance report. However, upon review of supporting documentation, the
audit team noted that while relevant results had been disaggregated by gender, targets had not.
Following discussion with the mission, the audit team agreed to remove the portion of the
recommendation related to targets from the final report because neither the contract, USAID,
nor PEPFAR makes it a requirement to disaggregate targets by gender. 11 Therefore, the
mission’s action constitutes final action on revised Recommendation 5.

Recommendation 6. USAID/Zambia agreed with the recommendation and, despite the
uncertainty of its effectiveness because of an ongoing investigation of the implementing partner,

11
  In the gender considerations for the fiscal year 2010 country operational plan guidance, PEPFAR lists
the setting of sex-disaggregated targets as a recommended activity.


                                                                                                    10
provided a copy of its formal request to the implementing partner to complete a gender analysis
and strategy. This action constitutes final action on Recommendation 6.




                                                                                            11
                                                                                             Appendix I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Pretoria conducted this performance audit in accordance with
generally accepted government auditing standards. 12 Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions in accordance with our audit objective. We believe that the evidence
obtained provides that reasonable basis.

The objective of this audit was to determine whether selected HIV/AIDS activities implemented
by USAID/Zambia were achieving the gender-focused goals of helping to increase gender
equity in HIV/AIDS services, reduce violence and coercion, address male norms and behaviors,
increase women’s legal protection, and increase women's access to income and productive
resources. Audit fieldwork was conducted from October 4 to October 21, 2010.

In planning and performing the audit, we assessed USAID/Zambia’s internal controls.
Specifically, we obtained an understanding of and evaluated the mission’s organizational
structure, contracting and assistance processes, monitoring and evaluation procedures, and
reporting processes.

In addition to assessing USAID/Zambia’s HIV/AIDS-related gender strategy, we selected three
bilateral PEPFAR-funded programs for detailed review. The three programs selected were the
Zambia Prevention, Care and Treatment Partnership II (ZPCT II), Corridors of Hope III Program,
and the Local Partners Capacity Building Program. As of September 30, 2010, USAID had
disbursed over $28.5 million to these programs.

We conducted fieldwork in Lusaka, where we interviewed key personnel at USAID/Zambia and
implementing partners’ head offices. Implementing partners interviewed in Lusaka included
officials from Family Health International (FHI) and subpartners responsible for ZPCT II, officials
from FHI responsible for the Corridors of Hope III Program, and officials from the Academy for
Educational Development (AED) responsible for the Local Partners Capacity Building Program.

In Copperbelt Province, we interviewed officials from the provincial and district medical offices,
as well as from FHI and subpartners responsible for ZPCT II in Ndola. We also performed site
visits at three ZPCT II-supported facilities in the Kitwe and Ndola districts—Kamfinsa Clinic,
Twapia Clinic, and Kaniki Clinic. 13 In Southern Province, we performed site visits at three of the
Corridors of Hope III Program’s seven locations—Livingstone, Kazungula, and Chirundu.

Methodology
To answer the audit objective, we first inquired about USAID/Zambia’s PEPFAR portfolio and
strategy for gender integration, and reviewed documentation supporting the inquiry. We then
judgmentally selected three programs for review according to (1) award amount (2) start and

12
  Government Auditing Standards, July 2007 Revision (GAO-07-731G).
13
  As of June 30, 2010, the ZPCT II program reported that it supports 74 facilities in Copperbelt Province
and 271 facilities countrywide.


                                                                                                      12
                                                                                        Appendix I


end dates (3) alignment with PEPFAR technical areas (e.g., sexual prevention, counseling and
testing) and (4) the assistance objective team managing the program. The selected programs
address a cross-section of PEPFAR’s technical areas and represent the HIV/AIDS portfolios of
the two primary assistance objective teams with PEPFAR funding.

We obtained information to understand the HIV/AIDS epidemic in Zambia, including incidence
and prevalence rates, gender norms, and barriers to access. We also reviewed applicable laws,
best practices, and guidelines pertaining to gender within USAID and PEPFAR programs.
Specifically, we reviewed the Tom Lantos and Henry J. Hyde United States Global Leadership
Against HIV/AIDS, Tuberculosis, and Malaria Reauthorization Act of 2008 (Public Law 110-293),
PEPFAR reporting requirements, materials published by PEPFAR’s Gender Technical Working
Group, reports published by the World Health Organization and the Government of Zambia, and
USAID’s ADS chapters (ADS 201, “Planning; ADS 203, “Assessing and Learning”; ADS 302
“USAID Direct Contracting”; and ADS 303 “Grants and Cooperative Agreements to Non-
Governmental Organizations”).

At USAID/Zambia we met with the assistance objective teams responsible for the selected
programs. As applicable, we interviewed the team leaders, contracting officer’s technical
representatives, agreement officer’s technical representatives, activity managers, HIV/AIDS
specialists, and gender focal points. We also met with key mission and U.S. Government
personnel with gender integration responsibilities including the PEPFAR Coordinator and
USAID/Zambia’s contracting officer. We conducted these meetings to assess the mission’s
processes, knowledge, and awareness of gender considerations in HIV/AIDS programming.
We reviewed documentation provided by USAID/Zambia, such as contract and agreement
documents, work plans, and performance reports, to determine to what extent HIV/AIDS
programming aligned with PEPFAR’s gender strategy and to what extent gender-related goals
were being met. Testimonial evidence was evaluated in conjunction with other interviews,
available documentation, and site visits.

We conducted additional interviews with staff in implementing partners’ head and field offices.
Through these interviews, we assessed implementing partners’ processes, knowledge, and
awareness of gender considerations in HIV/AIDS programming. In conjunction with the
interviews, we reviewed documentation provided by USAID/Zambia, such as work plans and
performance reports, and documentation provided by the implementing partners, such as
outreach materials and training curriculums.

During ZPCT II site visits, we conducted interviews with health facility staff to assess the staff’s
awareness of gender issues and the implementation of gender-related activities, and the
processes for data collection. We also assessed the level of support provided by the
implementing partner and subpartners. Because the program is not using indicators to track
progress toward gender-related goals, we did not sample and test health facility data. To
assess public awareness of USAID’s support, we toured the health facilities and interviewed
available beneficiaries.

During site visits for the Corridors of Hope III Program, we conducted interviews with
implementing partner and subpartner staff to assess the staff’s awareness of gender issues, the
implementation of gender-related activities, and the processes for data collection. We attended
scheduled outreach activities organized at each location to observe the implementation of
gender-related activities. Prior to site visits, we identified one indicator, number of individuals
who received counseling and testing for HIV and received their results, that we could validate
and that was relevant to the program’s gender goals. At each location, we reviewed the data


                                                                                                 13
                                                                                       Appendix I


supporting results appearing in the August 2010 monthly performance report, and judgmentally
selected ten individuals, according to the location at which they received services. We then
obtained the data collection forms completed by health-care workers for these individuals and
compared the forms with the system of record. Because we used a judgmental selection,
results of the sample tested cannot be projected to the population. To assess public awareness
of USAID’s support, we toured Corridors of Hope III facilities and interviewed beneficiaries, as
available.

Given the nature of the audit objective, no materiality thresholds were established.




                                                                                              14
                                                                               Appendix II



MANAGEMENT COMMENTS


Date:          Feb 17, 2011

To:            Christine Byrne, Regional Inspector General (RIG)/Pretoria

From:          Melissa Williams, Mission Director, USAID/Zambia /s/

Subject:       Management decisions on the Audit of USAID/Zambia’s Gender-
               Related HIV/AIDS Activities (Audit Report No. 9-611-11-XXX-P)

USAID/Zambia appreciates the January 6, 2011 report by RIG/Pretoria on the audit of
USAID/Zambia’s Gender –Related HIV/AIDS Activities. The Audit Report and
recommendations will improve program quality and will ensure that USAID/Zambia
Gender-Related HIV/AIDS activities achieve their intended objectives.

USAID/Zambia has reviewed and is in agreement with all six (6) recommendations.
However, it is not possible at this time for the Mission to address the recommendation
number 6 with certainty, since the Local Partner Capacity Building (LPCB) program is
being implemented by Academy for Educational Development (AED) whose activities
are under investigation by the Office of Inspector General. Based on advice from the
Office of Acquisition and Assistance (OAA) /Washington, AED has only been
incrementally funded through June 1, 2011.

 The following represents the Mission Management’s comments, measures, and decisions
on actions already taken, and actions planned to be taken, in order to properly address the
findings and recommendations contained in the audit report.

Recommendation No. 1: We recommend that USAID/Zambia develop and
distribute a plan or guidance to help ensure that its HIV/AIDs programming
systematically addresses PEPFAR’s Gender-related goals.

Actions Taken:

   1. On August 13, 2010, USAID/Zambia approved a Mission Order on Integrating
      Gender in USAID/Zambia Programs. The Mission Order applies to all USAID
      programs, including HIV/AIDs programs, and ensures that all programming
      systematically addresses Gender-related goals, including PEPFAR Gender-related
      goals. Attachment 1 is a copy of the Mission Order on Integrating Gender in
      USAID/Zambia Programs, dated August 13, 2010.


                                                                                         15
                                                                              Appendix II



       As directed under Section V of the Mission Order on integrating Gender in
       USAID/Zambia Programs, the following practices are undertaken by the Mission
       to ensure that all programming systematically addresses gender-related goals:

           • USAID/Zambia’s Office of Acquisition and Assistance (OAA), as
             approving office, is responsible for ensuring that all solicitations and
             procurement actions, Requests for Proposals (RFP), Requests for
             Applications (RFA) or Annual Program Statements (APS) require that
             Gender statements are incorporated and are scored in the resulting
             evaluation criteria. Attachment 2 is an example of a USAID/Zambia
             Request for Applications incorporating Gender and scoring gender in the
             evaluation criteria (Section V-Roles and Responsibilities).

           • USAID/Zambia’s Program Office (PRM) is responsible for ensuring
             gender integration in the Mission’s strategic planning and programs and
             the Assistance Objectives (AO) are responsible for including gender
             perspectives and indicators for program activities. In practice, this entails
             incorporating gender consideration rationale as part of the Activity
             Approval document. Attachment 3 is an example of a USAID/Zambia
             Activity Approval incorporating Gender in all programs (Section 11.0-
             Gender Issues).

The above constitutes the management decisions and measures taken to ensure
that Recommendation No. 1 is addressed.

Recommendation No. 2: We recommend that USAID/Zambia establish roles and
responsibilities for a mission gender focal point with input on all the mission’s
HIV/AIDs activities, and appoint an individual to the position.

Actions Taken:

   1. USAID/Zambia is in the process of recruiting a Project Development Specialist to
      be located in the Program Office (PRM). The Project Development Specialist
      will serve as the mission gender focal point and will provide expert guidance on
      integrating gender into all USAID programming. Attachment 4 is a copy of the
      solicitation and position description for the Project Development Specialist. A
      candidate has been selected and is awaiting security clearance.

The above constitutes the management decisions and measures taken to ensure that
Recommendation No. 2 is addressed.

Recommendation 3: We recommend that USAID/Zambia set a deadline by which
the Zambia Prevention, Care, and Treatment Partnership II gender strategy must
be approved and launched by partners, and develop a plan to meet the deadline.




                                                                                       16
                                                                             Appendix II


Actions Taken:

   1. The Zambia Prevention, Care, and Treatment Partnership (ZPCT) II gender
      strategy has been finalized and was approved by USAID/Zambia on February 11,
      2011. Attachment 5 is a copy of the approval memo and approved gender
      strategy.

   2. A local gender specialist has been recruited by ZPCT II as a full time staff
      member, whose primary responsibility is gender integration across the ZPCT II
      program objectives. Attachment 6 is the position description of the ZPCT II
      gender focal point person.

   3.    The ZPCT II has planned a phased launch and implementation of the gender
        strategy at all levels of the program. The launch and implementation will be
        coordinated by the ZPCT II Gender Specialist. Attachment 6 is the position
        description of the ZPCT II gender focal point person and Attachment 7 is the
        quarterly report for the period from October 2010 to December 2010, in which the
        phased launch and implementation of the gender strategy is discussed.

Planned Actions:

   1. The ZPCT II gender strategy will be rolled out and launched by partners, as
      discussed in the October 2010 to December 2010 ZPCT II quarterly report, by
      March 31, 2011.

   2. The ZPCT II Contracting Officer’s Technical Representative (COTR) will
      continue to use the regular COTR-ZPCT II bi-weekly meetings to monitor the
      phased launch and implementation of the ZPCT II gender strategy.

The above constitutes the management decisions and measures taken to ensure that
Recommendation No. 3 is addressed.

Recommendation 4: We recommend that USAID/Zambia require its contractor to
amend the Zambia Prevention, Care and Treatment Partnership II monitoring and
evaluation work plan to include a requirement to report on indicators for male
involvement in prevention of mother-to-child transmission and the promotion and
strengthening of couples-oriented counseling and testing.

Actions Taken:

   1. At USAID/Zambia’s request, ZPCT II submitted a revised monitoring and
      evaluation work plan which was reviewed and approved. The approved ZPCT II
      monitoring and evaluation work plan shows reporting on indicators disaggregated
      by sex. Attachment 8 is the approved ZPCT II monitoring and evaluation work
      plan.




                                                                                      17
                                                                           Appendix II


   2. At USAID/Zambia‘s request, ZPCT II has started disaggregating indicators for
      male involvement in prevention of mother-to-child transmission and promotion
      and strengthening of couples-oriented counseling and testing. Attachment 7 is
      the ZPCT II quarterly report for the period from October 2010 to December 2010
      which includes disaggregated indicators for male involvement in prevention of
      mother-to-child transmission and promotion and strengthening of couples-
      oriented counseling and testing.

The above constitutes the management decisions and measures taken to ensure that
Recommendation No. 4 is addressed.

Recommendation 5: We recommend that USAID/Zambia require its contractor to
disaggregate gender-relevant indicator targets and results in the Zambia
Prevention, Care and Treatment Partnership II program’s periodic program
performance reporting.

Actions Taken:

   1. At a COTR-ZPCT II meeting held on 15/11/2010, USAID/Zambia‘s requested
      and ZPCT II has started disaggregating gender-relevant indicator targets and
      results in the ZPCT II program’s periodic program performance reporting.
      Attachment 9 is a copy of the COTR-ZPCT II minutes of the meeting of
      15/11/2010, and Attachment 7 is ZPCT II quarterly report for the period from
      October 1, 2010 to December 31, 2010 showing disaggregated gender-relevant
      indicator targets and results.

The above constitutes the management decisions and measures taken to ensure that
Recommendation No. 5 is addressed.

Recommendation 6: We recommend that USAID/Zambia request that its
implementing partner perform a gender analysis that includes a timeline for the
development and implementation of a strategy to incorporate gender into activities
performed under the Local Partners Capacity Building Program.

Actions Taken:

   1. The Academy for Educational Development (AED) is implementing the Local
      Partners Capacity Building Program (LPCB). USAID/Zambia has requested the
      AED-LPCB program to amend its 2011 approved annual work plan to include an
      addendum on conducting a gender analysis that includes a timeline for the
      development and implementation of a strategy to incorporate gender into
      activities performed under the LPCB program. The gender analysis addendum to
      the 2011 LPCB Program work plan [2011 annual work plan covers the period
      from October 1, 2010 through September 30, 2011] is expected to be completed
      and submitted for USAID/Zambia review and approval by March 31, 2011.




                                                                                     18
                                                                             Appendix II


       Attachment 10 is the request to AED-LPCB for it to revise and include
       conducting a gender analysis in its 2011 annual work plan.

       In addition, AED-LPCB has incorporated the following modules which address
       gender influences in its current training activities:

           •   The social and behavior change communication core training has a large
               gender component to the training. Cohorts 1, 2, and 3 have completed this
               training; Cohort 4 is due to receive the training in March 2011.

           •   A new core training was developed as an HIV technical update where
               LPCB spent a half of a day dedicated to "understanding our gendered
               lives.” All 20 partners from Cohort 4 attended the training.

Planned Actions:

   1. When reviewing and approving the revisions to the 2011 annual work plan, the
      Agreement Officer’s Technical Representative (AOTR) for the LPCB Program
      will ensure that it includes a gender analysis that includes a timeline for the
      development and implementation of a strategy to incorporate gender into
      activities performed under the LPCB Program. The review and approval of the
      revised LPCB 2011 annual work plan will be completed by March 31, 2011.

   2. The LPCB-AOTR will continue to use the regular AOTR-LPCB bi-weekly
      meetings to monitor the implementation of the strategy and timeline, developed in
      Planned Actions No.1 above, for integrating gender into activities performed
      under the LPCB Program.

USAID/Zambia will continue to revisit this recommendation pending further advice from
OAA/Washington. The AED which is implementing the LPCB is currently under
investigation by the Office of Inspector General and, based on advice from Office of
Acquisition and Assistance (OAA) /Washington, has only been incrementally funded to
June 1, 2011.

The above constitutes the management decisions and measures taken to ensure that
Recommendation No. 6 is addressed.

The above constitutes USAID/Zambia’s management decisions and comments with
regard to Recommendations 1, 2, 3, 4, 5, and 6 contained in audit report number 9-611-
11-XXX-P. Therefore, in accordance with ADS 595.3, this memo constitutes the
measures and management decisions taken/planned to address the recommendations in
Audit Report No. 4-611-11-XXX-P and requests the closure of all the six (6) audit
recommendations upon issuance of the audit report.

Attachment: a/s




                                                                                        19
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
